HHS/OIG - Audit, "Review of the Accuracy of the Food and Drug Administration's Official Establishment Inventory," (A-15-01-20001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Accuracy of the Food and Drug Administration's Official
Establishment Inventory," (A-15-01-20001)
February 13, 2002
Complete
Text of Report is available in PDF format (1.24 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of
the accuracy of the Food and Drug Administration's (FDA) official establishment
inventory (OEI)--a computerized data base of establishments under the regulatory
purview of FDA.  The FDA is required to inspect, at least once every 2
years, establishments registered with FDA that are engaged in the manufacturer,
preparation, propagation, compounding, or processing of drugs and devices.
The FDA inspections identify objectionable conditions and practices and may
form the basis for administrative or regulatory action against the establishments
such as warning letters, license, suspension, product seizure, injunction, or
prosecution.  The FDA's OEI, which listed 135,885 establishments at the
time of our review, is not accurate and could be reduced by 21,742 establishments,
or 16 percent.  This error rate is higher than the goal FDA set for itself,
which is accuracy within 5 percent.  These inaccuracies were due to FDA
district offices suspending their quality assurance reviews of their respective
portions of the OEI during the transition to an updated management information
system.  The FDA agreed with our recommendations for corrective action
and provided  a plan for implementation.